OIG Investigative Reports, former Costal Bend College Business Manager Sent to Federal Prison for Embezzlement
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
U.S. Attorney's Office
Southern District of Texas
Tim Johnson, Acting United States Attorney
FOR IMMEDIATE RELEASE
April 24, 2009
www.usdoj.gov/usao/txs
Angela Dodge
Public Affairs Officer
(713) 567-9388
Former Costal Bend College Business Manager Sent to Federal Prison for Embezzlement
(CORPUS CHRISTI, Texas) - Costal Bend College's former Business Manager, Aubrey Mervin Smart Jr., 61, has been sentenced to federal prison for embezzlement from an organization receiving federal funds, acting United States Attorney Tim Johnson announced today.
At a sentencing hearing before United States District Judge John D. Rainey, Smart was sentenced to 18 months in federal custody, followed by two years of supervised release. Smart was also ordered to pay restitution to Costal Bend College in the amount of $127,541.85.
On Nov. 24, 2008, Smart pleaded guilty to embezzling from Costal Bend College, an organization receiving federal funds, admitting that while he was employed as the business manager at the college he stole more than $127,000 from the college's general fund. Costal Bend College is an organization which receives millions of dollars in grants and other aid from the United States Department of Education each year, which are deposited into the college's general fund account. As the business manager and financial officer of Costal Bend College, Smart had access to this general fund account. Between Feb. 4, 2008, and the discovery of his scheme on April 22, 2008, Smart used electronic fund transfers to move the embezzled funds from Costal Bend College's general fund account to a personal bank account under his control.
Smart was remanded to the custody of the United States Marshals Service following today's hearing.
The case was investigated by agents from the FBI, the U.S. Department of Education-Office of Inspector General and the Bee County Sheriff's Office. The case was prosecuted by Assistant United States Attorney Robert D. Thorpe Jr.
# # #
Top
Printable view
Share this page
Last Modified: 05/06/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov